"Review of the Food and Drug Administration's Internal Controls Over Its Purchase Card Activities," (A-15-97-80002)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of The Food and Drug Administration's Internal Controls Over
Its Purchase Card Activities," (A-15-97-80002)
March 2, 1998
Complete Text of Report is available in PDF format
(913 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of the Office of Inspector General's
review of internal controls over purchase card activities at the Food and Drug
Administration's (FDA) headquarters components. The FDA began using the VISA
purchase cards in 1989. The Purchase cards work much like personal credit cards,
enabling designated FDA employees to purchase goods or services costing, for
the most part, $2500 or less without much of the administration and paperwork
required by the standard procurement system. We found that FDA had not formally
assessed the effectiveness of compensating controls over the use of purchase
cards. Such controls are necessary because certain basic controls, such as separation
of duties, are inherently missing in the purchase card system. We recommended
that FDA evaluate the effectiveness of compensating controls over the purchase
card system. We also found several minor problems with FDA's use of purchase
cards. We found that FDA had improperly paid State sales tax in 3 of 174 randomly
selected transactions, and in one instance did not properly enter in its property
management records 2 sensitive accountable property items. We also noted that
the FDA's Division of Accounting leased a software package for $24,900, to automate
its purchase card activities without coordinating with FDA's Office of Information
Resources Management which is responsible for such initiatives. The FDA concurred
with all of our findings and our recommendation that FDA evaluate the effectiveness
of compensating controls over the purchase card system.